—

2311 Douglas Street CC dC) l LE s E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1100
LEROY D. CROPPER,
Petitioner,
v.
STATE OF ARIZONA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE JOHN H. BLUME, STEPHEN P.
GARVEY, SHERI LYNN JOHNSON, PAUL MARCUS, MARLA SANDYS, SCOTT E. SUNDBY, AND ELIZABETH S.
VARTKESSIAN IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
JOHN MILLS SCOTT E. SUNDBY
COUNSEL OF RECORD PROFESSOR OF LAW AND
PHILLIPS BLACK, INC. DEAN’S DISTINGUISHED
1721 Broadway SCHOLAR
Suite 201 UNIVERSITY OF MIAMI
Oakland, CA 94612 SCHOOL OF LAW
(888) 532-0897 1311 Miller Drive
j.-mills@phillipsblack.org Coral Gables, FL 33146

Counsel for Amici Curiae

Subscribed and sworn to before me this 8th day of April, 2020,
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

        

eos? Ondia-h, Chl

Affiant 39720

 

f GENERAL HOTARY-State of Nebraska
RENEE J. GOSS
‘My Comm. Exp. September 5, 2023,

   

Notary Public
 

Attorneys for Petitioner

Melissa Arbus Sherry Latham & Watkins LLP 202-637-3386
Counsel of Record 555 Eleventh Street, NW
Suite 1000

Washington, DC 20004

melissa.sherry@lw.com

Party name: Leroy D. Cropper

 

 

Attorneys for Respondent

Laura Patrice Chiasson Arizona Attorney General 520-628-6520
Counsel of Record 400 W. Congress, Suite S-315
Tucson, AZ 85701

laura.chiasson@azag.gov

Party name: State of Arizona

 

 
